U.S. DEPARTMENT OF STATE AND THE

BROADCASTING BOARD OF GOVERNORS

Office of Inspector General
Program Performance Report
Fiscal Year 2005




                                       a  cy
                            i    p lom
                          D
                  i o nal
           r m at
   a n sfo
Tr




             E F F E C T I V E   M A N A G E M E N T

                          A C C O U N T A B I L I T Y

                        P O S I T I V E   C H A N G E
                       OIG Strategic and Performance Goals and FY 2005 Results
      Strategic Goal                Performance Goals                      Measure              Target             Actual         Comparison         FY in which
                                                                                                                                  with FY 2004      target will be
                                                                                                                                     Results             met

The Department and         Improve the operations of overseas       1. Number of missions          49              50 (A)           The Same
                           missions, domestic bureaus, and          and bureaus inspected
the BBG effectively,
                           international broadcasting activities    2. Number of reports           11              15 (SA)         Significantly
efficiently, and           through inspections, audits, and         issued on systemic                                                Better
economically advance       program evaluations.                     issues and programs
the foreign policy
                                                                    3. % of recs. resolved        80%              78% (B)         Significantly      FY 2006
interests of the United                                             in 6 months                                                       Worse
States.
                                                                    4. % of significant           75%              80% (A)        Slightly Better
                                                                    recs. resolved in 6
                                                                    months
The Department and         Assess security for personnel,           5. Number of security          12              16 (SA)         Significantly
the BBG adequately         facilities, and information at           reports issued                                                    Better
protect the people,        Department and BBG facilities            6. Percent of recs.           80%             72% (SB)        Slightly Worse      FY 2006
                           worldwide and ensure that                resolved in 6 months
information, and
facilities under their     necessary corrective actions are         7. Percent of                 75%              80% (A)         Significantly
                           implemented.                             significant recs.                                                 Better
control in the United                                               resolved in 6 Months
States and abroad.
                           Identify vulnerabilities in              8 Reports Issued on            25              36 (SA)         Significantly
The Department and         Department and BBG financial and         programs reviewed                                                 Worse
the BBG have the           administrative support programs          9. Percent of recs.           68%             45% (SB)         Significantly      FY 2006
necessary systems and      and recommendations to improve           Resolved in 6 Months                                              Worse
controls to meet legal     them.                                    10. Percent of                50%             30% (SB)         Significantly      FY 2006
and operational                                                     significant recs.                                                 Worse
                                                                    Resolved in 6 months
requirements.
                           Evaluate Department and BBG              11. Percent of major          80%             100% (SA)       No data for FY
                           progress in addressing priority issues   management                                                        2004
                           such as the Secretary’s management       challenges addressed
                           priorities, major management             in OIG reports
                           challenges, high-risk areas,
                           performance measurement, and the
                           President’s Management Agenda.

The Department and         Identify potential monetary and          12. Return on                $1.10           $5.01 (SA)        Significantly
                           nonmonetary benefits resulting           Investment for Audits                                             Better
the BBG ensure                                                      ($ returned for $
                           from audit, inspection, program
accountability and         evaluation and investigative findings    invested)
prevent or eliminate       concerning fraud, waste, abuse, and
fraud, waste, abuse,       mismanagement and improve the            13. Value of Cost         $8.6 million   $31.5 million (SA)    Significantly
                                                                    Savings,                                                          Better
and mismanagement in       efficiency of Department operations
                                                                    Efficiencies,
programs and               and compliance with applicable
                                                                    Recoveries, and Fines
operations.                contract and grant agreements.
                           Promote professional and ethical         14. Number of                  13              27 (SA)        No data for FY
                           conduct and accountability; and          activities focused on                                             2004
                                                                    key Department
                           investigate fraud, waste, abuse, and
                                                                    vulnerabilities
                           mismanagement.
                                                                    15. % of reports of           60%             100% (SA)       No data for FY
                                                                    investigation issued                                              2004
                                                                    within 6 months
                           Ensure employees have the                16. % of staff                75%              77% (A)        No data for FY
                           professional skills and expertise        completing required                                               2004
                                                                    leadership and
                           necessary to fulfill OIG’s mission
                                                                    management training
Internal Enabling Goal     and goals.

                           Continuously improve OIG products        17. % of customers          Develop           Survey          No data for FY      FY 2006
                           and processes for maximum impact         rating OIG work as          Baseline       Development            2004
                                                                    having a significant                       Deferred (SB)
                           in meeting customer needs.
                                                                    impact in improving
                                                                    operations
                                                                    18. Average number            180              188 (B)        Slightly Worse      FY 2006
                                                                    of days for inspections
                                                                    19. Average number            240              230 (A)         Significantly
                                                                    of days for audits                                                Better
                             (SA)=Significantly Above, (A) = Above, (O) = On Target, (B) = Below, (SB) Significantly Below
                            Message from the Inspector General

 I am pleased to present the Office of Inspector General’s (OIG) Program Performance Report
for Fiscal Year 2005. This is OIG’s seventh annual Performance Report, but it is my first since
                  becoming Inspector General in May 2005. It describes our success in
                  achieving our goals and performance targets, the outcomes that have
                  resulted from our efforts, and the accomplishments that will produce
                  additional results in the years to come.

                 OIG was established to prevent and detect waste, fraud, abuse and
                 mismanagement in and to improve the efficiency, effectiveness, economy,
                 integrity and accountability of the Department of State and, subsequently,
                 the Broadcasting Board of Governors (BBG). We provide oversight through
                 independent, objective, and professional assessments of their operations and
                 activities and, where appropriate, make recommendations to improve them.
We also provide consultative services and work with them in specific endeavors that will serve
the public good. We contribute to the Secretary’s transformational diplomacy goals by
assessing how missions around the world, at a time more and more is being asked of them, are
succeeding in promoting democracy and supporting other transformational diplomacy
initiatives.

By all the yardsticks used to measure ourselves—our performance results, the positive change
our oversight helps bring to the Department and the BBG and their efforts to achieve their
missions and goals, and the benefits these efforts provide to the President, the Congress and
the American people—this was a successful year and provides evidence of the substantial value
and return on investment OIG brings in monetary savings to the government; improved
efficiency, effectiveness, economy, and integrity of Department and BBG operations; and
increased safety, quality of life, and accountability of their personnel.

Highlights of the results or our efforts include actual recoveries and savings of $8.6 million and
potential savings of $29 million more in questioned costs and funds put to better use; the
merger of the Department’s Bureaus of Arms Control and Nonproliferation and significant
changes to the Bureau of Verification; the resignation of the commissioner of a U.S.
Commission following a critical OIG inspection; recommended improvements to the Iraqi Police
Training Program and the support provided to and staffing of Embassy Baghdad; and the
establishment, in coordination with other Department bureaus, of an initiative to strengthen
border security by targeting individuals using identity theft to obtain U.S. passports

We are pleased with these results, but not content. We are committed to providing even
more—and more significant—results and benefits in the future for the Department, the BBG,
the Congress and the American public.




                                                             Howard J. Krongard
                                                             Inspector General
                                  Office of Inspector General
                 Department of State and the Broadcasting Board of Governors
                                 FY 2005 Performance Report




                                           VISION

To be a world-class organization promoting effective management, accountability, and
positive change in the Department of State, the Broadcasting Board of Governors, and
the foreign affairs community.


                                          MISSION

The Office of Inspector General conducts independent audits, inspections, and
investigations that advance the missions of the Department of State and the
Broadcasting Board of Governors. OIG provides leadership to: promote integrity,
efficiency, effectiveness and economy; prevent and detect waste, fraud abuse and
mismanagement; identify vulnerabilities and recommend constructive solutions; offer
expert assistance to improve Department and BBG operations; communicate timely,
useful information that facilitates decision-making and achieves measurable gains; and
keep the Department, BBG and the Congress fully and currently informed.

                           OIG Strategic and Performance Goals

The Government Performance and Results Act of 1993 requires agencies to submit annual
performance reports detailing their success in achieving the goals and measures in their annual
performance plans. As the independent oversight body for the Department of State, as well as
the Broadcasting Board of Governors, the Office of Inspector General has chosen to develop its
own vision and mission statements and strategic and performance goals and to submit
individual performance plans and reports along with those of the Department of State.



ii                                                                  FY 2005 Performance Report
                                    Office of Inspector General
                  Department of State and the Broadcasting Board of Governors
                                  FY 2005 Performance Report

IX C:   LIST OF ABBREVIATIONS………………………………………….…76
                                   Table of Contents
OIG STRATEGIC AND PERFORMANCE GOALS AND FY 2005 RESULTS SUMMARY         INSIDE FRONT COVER

MESSAGE FROM THE INSPECTOR GENERAL                                                      i

MISSION AND VALUES                                                                      ii

MANAGEMENT’S DISCUSSION AND ANALYSIS                                                     1
      OIG RESPONSIBILITIES AND ORGANIZATION                                              1
             RESPONSIBILITIES                                                            1
             ORGANIZATIONAL STRUCTURE                                                    1
      STRATEGIC AND PERFORMANCE GOALS                                                    2
      OIG HUMAN RESOURCES                                                                3
      OIG BUDGET                                                                         3
             RESOURCES SUPPORTING STRATEGIC GOALS                                        4
      PERFORMANCE SUMMARY AND HIGHLIGHTS                                                 5
             MOST IMPORTANT RESULTS                                                      5
             KEY ACHIEVEMENTS AND ACCOMPLISHMENTS                                        6
             SUMMARY OF RESULTS OF PERFORMANCE INDICATORS AND TARGETS                    7
             COMPARISON OF FY 2005 RESULTS WITH THOSE OF PRIOR YEARS                     7
             REASONS FOR RESULTS SHORTFALLS                                              8
             UNMET TARGETS                                                               8
             MEETING CONTINUING CHALLENGES                                               8
             PROGRAM EVALUATIONS                                                         9
             PROGRAM ASSESSMENT RATING TOOL AND THE PRESIDENT’S MANAGEMENT AGENDA        9
             CHANGES TO FY 2006 GOALS, INDICATORS, AND TARGETS                          10
      HOW PERFORMANCE IS ASSESSED                                                       11
             SIX-TIERED METHODOLOGY                                                     11
             PERFORMANCE REPORTING COMPONENTS                                           12
             PERFORMANCE RATING SYSTEM                                                  12
             PERFORMANCE DATA QUALITY AND LIMITATIONS                                   13
             VERIFICATION                                                               13
             VALIDATION                                                                 14

PERFORMANCE SECTION                                                                     16
      OIG IMPACT: ACHIEVING RESULTS                                                     16
             COMPARISON OF FY 2005 AND FY 2004 PERFORMANCE GOAL RATINGS                 16
      STRATEGIC GOAL 1: FOREIGN POLICY                                                  17
      STRATEGIC GOAL 2: SECURITY                                                        21
      STRATEGIC GOAL 3: FINANCIAL MANAGEMENT AND ADMINISTRATIVE SUPPORT                 25
      STRATEGIC GOAL 4: ACCOUNTABILITY                                                  29
      INTERNAL ENABLING GOAL: MANAGEMENT EXCELLENCE                                     33

APPENDICES                                                                              37
       APPENDIX A: REPORTS ISSUED IN SUPPORT OF OIG’S STRATEGIC GOALS                   37
       APPENDIX B: REPORTS ISSUED THAT ADDRESS THE PMA                                  40

LIST OF ABBREVIATIONS                                                                   42
FY 2005 OIG Performance Report
                                Office of Inspector General
               Department of State and the Broadcasting Board of Governors
                               FY 2005 Performance Report



            Management’s Discussion and Analysis
                OIG Responsibilities and Organization
                                   Responsibilities

The mission of the Office of Inspector General (OIG) is to conduct independent audits,
inspections, and investigations that advance the missions of the Department of State
(Department) and the Broadcasting Board of Governors (BBG). As required by law, OIG
provides independent, objective, and professional oversight of these operations and
activities through a rigorous program of inspections, audits, special reviews, and
investigations. It is OIG’s responsibility to examine, evaluate, and critique these
operations and activities, recommending ways for these agencies to carry out their
respective responsibilities in the most efficient, effective, and economical manner
possible, and always with integrity. No other single entity or combination of organizations
within either agency can perform these functions with such objectivity, extent, range and
diversity of scope, or can bring to these functions such a level of professional standards,
disciplines, and expertise.

                              Organizational Structure

All OIG operations are located in the Washington, D.C., area, although OIG staff conduct
their work at Department and BBG locations worldwide. A reorganization of OIG became
effective in April 2005. As shown in the organizational chart below, OIG’s mission is
carried out by four functional offices (Audits, Information Technology, Inspections, and
Investigations) and the Office of Management, Policy and Planning for internal operations,
each headed by an Assistant Inspector General, and four advisory and support offices.




FY 2005 OIG Performance Report                                                                1
                                         Office of Inspector General
                        Department of State and the Broadcasting Board of Governors
                                        FY 2005 Performance Report




                                   Strategic and Performance Goals
The Government Performance and Results Act of 1993 requires agencies to submit annual
performance reports detailing their success in achieving the goals and measures in their
annual performance plans. As the independent oversight body for the Department of State
and the BBG, OIG has a vision, a mission, and strategic and performance goals and
individual performance plans and reports. However, because our success is ultimately
reflected in the agencies’ success in achieving their missions and goals, our goals are
expressed in terms of outcomes that support the agencies’ efforts to carry out their
operations with integrity, accountability, and efficiency.

                                                              Mission
        To conduct independent audits, inspections, and investigations that advance the
         missions of the Department of State and the Broadcasting Board of Governors



    The Department and the             The Department and the           The Department and the            The Department and
    BBG effectively,                   BBG adequately protect           BBG have the necessary            BBG ensure
    efficiently, and                   the people, information,         financial and support             accountability and
    economically advance the           and facilities under their       systems and controls to           prevent or eliminate
    foreign policy interests of        control in the United            meet legal and                    fraud, waste, abuse,
    the United States.                 States and abroad.               operational                       and mismanagement in
                                                                        requirements.                     programs and
                                                                                                          operations.

    Improve the operations of          Assess security for personnel,   Identify vulnerabilities in       Identify potential monetary
    overseas missions, domestic        facilities, and information at   Department and BBG financial      and nonmonetary benefits
    bureaus, and international         Department and BBG facilities    and administrative support        resulting from audit,
    broadcasting activities            worldwide, and ensure that       programs, and                     inspection, program
    through inspections, audits,       necessary corrective actions     recommendations to improve        evaluation and investigative
    and program evaluations.           are implemented.                 them.                             findings concerning fraud,
                                                                                                          waste, abuse, and
                                                                                                          mismanagement, and
                                                                                                          improve the efficiency of
                                                                                                          Department operations and
                                                                                                          compliance with applicable
                                                                                                          contract and grant
                                                                                                          agreements.




                                                                        Evaluate Department and BBG       Promote professional and
                                                                        progress in addressing priority   ethical conduct and
                                                                        issues such as the Secretary’s    accountability; and
                                                                        management priorities, major      investigate fraud, waste,
                                                                        management challenges, high-      abuse, and
                                                                        risk areas, performance           mismanagement.
                                                                        measurement, and the
                                                                        President’s Management
                                                                        Agenda.




                                    Strategic Goals                                              Performance Goals




2                                                                                                FY 2005 Performance Report
                                                            Office of Inspector General
                                           Department of State and the Broadcasting Board of Governors
                                                           FY 2005 Performance Report



                                                              OIG Human Resources
     OIG’s workforce consists of approximately 200 employees in the Civil and Foreign Service.
     Full-time, permanent staff are supplemented by retired Foreign and Civil Service
     annuitants and external contractors, as necessary. Since FY 1996, the total number of
     OIG employees has decreased by almost 20 percent, while the Department has increased
     the number of its employees by 25 percent, straining considerably OIG’s oversight
     capacity.

                                            Staff on Hand at end of Fiscal Year for Fiscal Years 1996 - 2005

                                     300

                                     250

                                     200

                          Staff      150

                                     100

                                      50

                                       0
                                             1996    1997      1998     1999      2000     2001     2002      2003      2004      2005
                Staff on Hand                253      248      247       238      220      227      229       219       214       200




                                                                        OIG Budget
     OIG’s budget has been relatively unchanged (a 15 percent increase, unadjusted for
     inflation) from the time of the FY 1996 merger with the OIG of the United States
     Information Agency until FY 2004, when OIG received an increase of approximately $2.3
     million. This was followed by a reduction of $1.4 million in FY 2005, which was
     subsequently increased by $1.69 million in supplemental funding for work related to Iraq.


                                                      OIG Appropriation History for Fiscal Years 1996 - 2005

                                     $35
                                     $30
                                     $25
                     $ in millions




                                     $20
                                     $15
                                     $10
                                     $5
                                     $0
                                             1996    1997      1998      1999      2000     2001     2002       2003      2004      2005
OIG Appropriation (in millions)             $27.33   $27.50    $27.50    $28.50   $27.38   $28.43    $29.00    $29.07    $31.40     $31.69




     FY 2005 OIG Performance Report                                                                                                          3
                                               Office of Inspector General
                              Department of State and the Broadcasting Board of Governors
                                              FY 2005 Performance Report


During the same period, the Department’s overall appropriations have increased almost 92
percent. OIG’s appropriation, as a percentage of the Department’s appropriation, has
decreased from almost 0.59 percent to 0.36 percent. Increasing costs—particularly per
diem and airfare for overseas travel—and a shrinking workforce (85 percent of OIG’s
budget is consumed by salaries and benefits) make it increasingly difficult for OIG to meet
its oversight responsibilities, resulting in reductions to the amount of work that can be
performed and performance targets.
                   OIG Appropriations as a Percentage of Department Appropriations
                 0.60%

                 0.50%

                 0.40%
    Percentage




                 0.30%

                 0.20%

                 0.10%

                 0.00%
                          1996        1997    1998     1999    2000    2001      2002    2003     2004    2005
                          0.59%       0.59%   0.51%    0.37%   0.42%   0.41%     0.34%   0.34%   0.35%    0.36%
                                                          Fiscal Year and Percentage



                                         Resources Supporting Strategic Goals


                     Budget $ Expended in Support of               Staff Supporting Each Strategic Goal
                          Each Strategic Goal


                 23%                               29%           24%                                     26%




                                                                                                           15%
    33%                                                  15%
                                                                        35%
                 SG1: $9.1 Million        SG2: $4.6 Million
                                                                 SG1: 52       SG2: 29   SG3: 70     SG4: 51
                 SG3: $10.6 Million       SG4: $7.4 Million




4                                                                                                FY 2005 Performance Report
                                     Office of Inspector General
                    Department of State and the Broadcasting Board of Governors
                                    FY 2005 Performance Report


                     Performance Summary and Highlights
                                         Most Important Results

During FY 2005, OIG findings and recommendations prompted actions taken by the
Department and BBG that produced significant results. These included improved
verification procedures and quality controls to ensure that only American citizens received
U.S. passports, better protection of classified information and materials, and
improvements in the integrity, accuracy, and reliability of financial management and
other information systems. OIG audit and investigative activities also improved
accountability for Department employees, contractors, and grantees; identified potential
cost benefits; and reduced fraud and other violations of law and regulation. Highlights of
some of our most important results are shown below by strategic goal.

      SIGNIFICANT RESULTS IN RESPONSE TO OIG REPORTS AND INVESTIGATIONS

                                                 Foreign Policy
•   The merger and reorganization of the Bureaus of Arms Control and Nonproliferation and the expanded mandate of
    the Bureau of Verification and Compliance
•   The resignation of a commissioner of a U.S. Commission following a critical OIG inspection.
•   Improved program coordination between regional bureaus and the Bureaus of Educational and Cultural Affairs and
    International Information Programs
•   More timely processing of exchange visitor visas


                                                     Security
•   Removal of information from embassy websites and publications that increased vulnerability of U.S. citizen faculty
    and students at overseas schools to anti-American violence and terrorism
•   The physical relocation of and the reduction of security vulnerabilities at Embassy Amman’s Iraq Support Unit
•   Improved border security because of a strengthened nonimmigrant visa referral process
•   Creating a condensed version of guidelines for perimeter site lighting to assist regional security officers at all
    worldwide locations and instructing them to work with their regional security engineering officer to perform a
    lighting survey
•   BBG reconsideration of how it performs Federal Information Security Management Act and information
    management oversight and reorganization of its approach so that Information Technology systems at transmitting
    stations are managed centrally

                          Financial Management and Administrative Support
•   Recovery by the Department of $3.5 million in deobligated funds from an overseas security construction upgrade
    project, that were subsequently used to fund other security upgrades
•   Reimbursements of approximately $685,000 for diesel fuel overcharges at the Jordan International Police Training
    Center
•   Savings of over $250,000 in the cost of a new contract for cellular services at an overseas mission
•   Significantly improved support to Embassy Baghdad from Embassy Amman, including better communications
    between Amman’s Iraq Support Unit (ISU) and Baghdad and better trained and more effective ISU staffing
•   Establishment of a committee for financial assistance to ensure adequate controls for awarding, monitoring and
    accounting for Federal assistance, including joint work with the United States Agency for International
    Development to establish a system of accounting for federal assistance

                                                 Accountability
•   Recovery of nearly $2 million in questioned costs from a Department contract for Afghanistan protective services
•   Savings of $1.3 million in contract costs resulting from a double-billing error by a contractor
•   20 judicial actions, 22 administrative actions, and more than $900,000 in fines and recoveries


FY 2005 OIG Performance Report                                                                                           5
                                         Office of Inspector General
                        Department of State and the Broadcasting Board of Governors
                                        FY 2005 Performance Report


                               Key Achievements and Accomplishments

FY 2005 was a very successful year in terms of the overall influence that OIG’s work had
on Department and BBG programs, operations, and activities. OIG issued almost 150
reports of audits, inspections, and other reviews of Department and BBG programs,
operations, activities, contracts, and grants. Where appropriate, the reports contained
findings and recommendations identifying problems, deficiencies, and vulnerabilities and
recommended corrective actions to rectify them and to prevent them from occurring in
the future. The table below highlights the expected results of these key findings and
recommendations.

        Key FY 2005 Achievements, Accomplishments & Expected Future Results
                                                            Foreign Policy
    •    Issuing a joint Department of Defense-State OIG assessment of Iraqi Police Training recommending greater involvement of
         Iraqi officials in all aspects of training and shifting the emphasis from the numbers trained to the quality of training, which
         will significantly refocus the emphasis of costly but critically important training programs and improve their outcomes

    •    Identifying potential savings to the Department of $600,000 by consolidating administrative support services at Embassy
         Paris
    •    Recommending more and better coordination, interaction, and integration between the missions’ public affairs officers
         and those of other foreign affairs agencies at post, which will lead to more consistent and orchestrated public diplomacy

                                                                Security
    •    Partnering OIG investigators with the Bureaus of Consular Affairs and Diplomatic Security, the Department of Justice, and
         other agencies in a proactive effort, known as Passport Sentinel, that strengthens border security by identifying individuals
         using illegal methods to obtain U.S. passports

    •    Recommending improvements to post emergency action plans that will improve emergency preparedness and the safety of
         U.S. personnel and citizens abroad

    •    Highlighting the need for better coordination among bureaus that have information security functions consistent with the
         responsibilities of the Chief Information Officer in order to improve information security in the Department

                                    Financial Management and Administrative Support
    •    Identifying untapped rightsizing and regionalization opportunities and redundant administrative operations and making
         recommendations to address them that will reduce costs and security vulnerabilities and improve operations

    •    Identifying a potentially material understatement of extensive aircraft and spare parts inventory that could affect the
         Department’s previously issued FY 2004 financial statements, resulting in more accurate financial statements

                                                            Accountability
    •    Identifying potential savings of $7.2 million in questioned costs and funds put to better use beyond those identified under
         other goals that will produce a more efficient use of government funds

    •    Recommending improvements to strengthen the vetting procedures for gaining admittance into the Exchange Visitor
         Program, which will increase the Department’s ability to monitor compliance and abuse by designated sponsor
         organizations




6                                                                                                   FY 2005 Performance Report
                                  Office of Inspector General
                 Department of State and the Broadcasting Board of Governors
                                 FY 2005 Performance Report


         Summary of Results of Performance Indicators and Targets

The following chart shows the ratings distribution for all performance results reported in
FY 2005. As shown below, 68 percent of the results were on or above target.

                   Summary of Actual vs. Targeted Performance Results
            Significantly Below
                Target (4)                                                                           Significantly Above
                    21%                                                                                  target (8)
                                                                                                             42%




        Slightly Below Target
                                                                        Slightly Above Target
                  (2)
                                                                                  (5)
                 11%
                                                                                 26%



          Comparison of FY 2005 Results with Those of Prior Years
In FY 2005, 68 percent of OIG’s performance results met or exceeded performance
targets. This represents a significant improvement over FY 2004, when 41 percent of
results met or exceeded performance targets and is higher than the prior OIG best of 58
percent in FY 2003. Additionally, 57 percent of the FY 2005 results exceeded FY 2004
results.

OIG’s most successful performance target results were under its strategic goals for
Accountability, Foreign Policy, and Security. FY 2005 results for these goals exceeded 100
percent, 75 percent and 67 percent, respectively of their targets. The results for the
strategic goal related to Financial Management and Administrative Support and the
internal goal in support of Management Excellence, were less successful, falling short of
targeted levels. However, as shown in the bar graph below, 75 percent of the results for
Foreign Policy, 50 percent of the results for Accountability and Management Excellence,
and 33 percent of the results for Security exceeded the best results of prior years.

                  Percentage of FY 2005 Results that Equaled or Exceeded the Best Results of Prior Years
                                   75%
                                 80%
                                                                                            50%
                    Percentage




                                                                                                            50%
                                 60%
                                                             33%
                                 40%

                                 20%                                      0%
                                 0%
                                       Foreign Policy   Security      Financial     Accountability    Management
                                                                     Management                        Excellence

                                                                   Strategic Goal



FY 2005 OIG Performance Report                                                                                             7
                                 Office of Inspector General
                Department of State and the Broadcasting Board of Governors
                                FY 2005 Performance Report


                            Reasons for Results Shortfalls
There were three significant factors for why performance targets were not met.

    •   The suspension, deferment, or cancellation of planned work due to unanticipated
        resource constraints resulting from significantly increased travel costs, a declining
        dollar, and a decline in staff on board due to high attrition and budgetary
        shortages;
    •   Department and BBG failing to ensure timely agreement with recommended
        corrective actions; and
    •   Targets based solely on meeting or exceeding the highest prior targeted or actual
        results, when it was unlikely that they could be achieved.

                                     Unmet Targets

OIG did not meet six targets in FY 2005. Four of these relate to the resolution of
recommendations within six months, one to developing a baseline for a customer survey,
and one for completing inspections and program reviews, on average, within 180 days.
OIG expects to achieve or exceed targeted levels in FY 2006 by focusing additional
emphasis on compliance and receiving a full year’s benefit of the efficiencies and process
improvements resulting from the OIG’s FY 2005 reorganization.

In addition, in the FY 2004 Performance Report, OIG identified six performance targets
that were not achieved in FY 2004 that it expected to achieve in FY 2005. Two of these—
the number of security-related reports issued (16 vs. the FY 2004 target of 9) and the
identified potential monetary savings ($31.5 million vs. the FY 2004 target of $8.6
million)—were achieved in FY 2005. One—the percentage of security recommendations
resolved within six months (45 percent vs. a FY 2004 target of 87 percent)—was not
achieved. Three of the performance measures—percentage of significant foreign policy
recommendations closed within one year, percentage of security recommendations closed
within one year, and percentage of projects completed within 183 days—were dropped
and replaced by other measures and targets for FY 2005. OIG exceeded the FY 2004 target
for the first of these but missed the FY 2004 targets of the other two.

                           Meeting Continuing Challenges

OIG continues to face three major challenges to achieving its strategic and performance
goals:

•   Obtaining the funding necessary to overcome a decade of static appropriations that
    has eroded OIG's oversight capabilities as its funding relative to that of the
    Department declined by over 30 percent;
•   Meeting oversight responsibilities that are ongoing (such as the legislatively mandated
    five-year inspection schedule) and new (such as activities related to Iraq and
    Afghanistan) in an environment of increasing costs and declining resources; and
•   Identifying, attracting, and retaining personnel with the requisite skills, abilities, and
    experience.


8                                                                      FY 2005 Performance Report
                                Office of Inspector General
               Department of State and the Broadcasting Board of Governors
                               FY 2005 Performance Report




OIG will meet these challenges by actively making its case for the resources it needs to
meet its oversight responsibilities while continuing its efforts to use the resources it has
more efficiently and effectively. The reorganization that OIG introduced in FY 2005
combined related operations, flattened operations and structure and reduced redundant
layers of management. It will be further refined to build on these benefits.

Resource and time-intensive, paper-driven processes such as those related to inspection
surveys, audit work papers, and OIG reports will be replaced or supplemented by
electronic ones that are more cost-effective and make information easier and faster to
use, store, and share. Accessing available Department and BBG data electronically from
Washington, rather than traveling to posts to collect it, will become the rule rather than
the exception. The scope, frequency, and priority of audits and inspections will be
determined by a risk-based analysis rather than traditional methodologies.

Where appropriate, OIG will coordinate or participate in reviews with other OIGs to
leverage resources and results. OIG staff will be encouraged to obtain professional
certifications, to receive training that will allow them to become more expert in their
own specialties and cross-trained in others, and to develop their leadership skills and
abilities. OIG will meet its challenges by becoming more efficient, more effective and, for
those who work there, more rewarding.

                                 Program Evaluations

During FY 2005, OIG underwent one program evaluation, an external peer review of the
Office of Investigations conducted by the Tennessee Valley Authority’s OIG (TVA/OIG).
The objective of the review was to determine whether internal control systems were in
place and operating effectively to provide reasonable assurance that professional
investigative standards are being followed. All of the review steps and guidelines were
based on the President’s Council on Integrity and Efficiency (PCIE) Quality Standards for
Investigations, and a copy of the review findings was sent to the Attorney General.
TVA/OIG made suggestions for improvement of OIG’s investigative process, which the
Office of Investigations has begun implementing. The next such peer review is scheduled
to take place in FY 2008.

Program Assessment Rating Tool and the President’s Management Agenda

In support of broader administration priorities, OIG contributes to the schedule of program
evaluations and Program Assessment Rating Tool (PART) reviews carried out by the
Department and the Office of Management and Budget (OMB) and evaluates Department
and BBG progress in implementing the President’s Management Agenda (PMA)—particularly
rightsizing of the U.S. overseas presence, expanded e-government, and improved financial
performance. Following OMB guidance, OIG itself is not subject to the PART. However,
during FY 2005 OIG implemented several internal initiatives supporting the PMA including:




FY 2005 OIG Performance Report                                                                 9
                                Office of Inspector General
               Department of State and the Broadcasting Board of Governors
                               FY 2005 Performance Report


Strategic Human Capital
    • Reorganized organizational structure, eliminating three offices and AIG positions
    • Integrated post management, security, and information technology (IT) inspection
       functions

Competitive Sourcing
   • Identified 10 percent of OIG positions as eligible for outsourcing
   • Used competitively sourced contractors and temporary employees to supplement
     or replace fulltime staff in the areas of financial statement and contract and
     grants audits, IT support, and inspections

Financial Management
   • Met the accelerated deadline for the Department’s Financial Statements

Budget-Performance Integration
   • Provided oversight that aided the Department in reaching the “Green” level


              Changes to FY 2006 Goals, Indicators, and Targets

In light of its likely FY 2006 appropriation, FY 2005 results, changing world conditions, and
rising costs, OIG is reviewing its FY 2006 performance plan. OIG anticipates revising
several of the indicators and targets by the time it receives its appropriation and finalizes
its FY 2007 performance budget.




10                                                                    FY 2005 Performance Report
                                Office of Inspector General
               Department of State and the Broadcasting Board of Governors
                               FY 2005 Performance Report



                       How Performance Is Assessed
              Six-Tiered Performance Management Methodology

Like the Department, OIG is committed to, and focused on, using its funds to produce
successful results. To do so, OIG uses a six-tiered performance management methodology.
All of OIG’s strategic goals support the Department’s strategic objective to “Strengthen
Diplomatic and Program Capabilities.” Because all OIG indicators focus on quantifiable
results, OIG also reports major accomplishments and results noting specific activities and
results not captured by its indicators that contribute to the achievement of its strategic
goals. The component tiers of OIG’s performance management methodology are defined
as follows:
   Strategic Goals: OIG’s four long-term goals, as detailed in its Strategic Plan.
   Performance Goals: The desired annual results that OIG expects to achieve, which are
   necessary to attain the strategic goals. OIG has eight performance goals and two
   internal enabling goals.
   Performance Indicators: Values and characteristics that OIG uses to measure progress
   achieved toward its stated annual performance goals including: reports issued;
   percentage of recommendations resolved; management challenges addressed; return
   on investment for audits; monetary savings and efficiencies identified; timeliness of
   audits, inspections, and investigations; percentage of staff completing training
   requirements; and responses to customer surveys.
   Performance Targets: Quantifiable expressions of desired performance levels and
   results for a given fiscal year.
   Major Accomplishments: Activities, outputs and interim outcomes—such as specific
   reports issued, recommendations made, or Department and BBG promises to take
   actions in response to OIG activities—of particular significance or noteworthy impact.

   Results of Our Work: Actions taken by the Department, BBG, or other entities in
   response to OIG reports, recommendations, and other efforts and activities; outcomes
   that benefit the U.S. government and the American people.


                       Performance Reporting Components

Because OIG’s FY 2005 Performance Report is presented in conjunction with the
Department’s Performance and Accountability Report, and to better demonstrate the
alignment of OIG’s results with the mission of the Department, OIG’s presentation and
format mirrors that used by the Department, to the extent appropriate.

   Results Presented in Concise Strategic Goal Chapters: OIG has adopted a format that
   provides a context for the results and links them to public benefits and resource
   investments.



FY 2005 OIG Performance Report                                                               11
                                      Office of Inspector General
                     Department of State and the Broadcasting Board of Governors
                                     FY 2005 Performance Report




     Section Title                                Description and Purpose
                         A concise narrative of how the goal and its results contribute to improving the
      Public Benefit
                         Department and benefit the American taxpayer.
     Selected Results
                         Significant outcomes resulting from Department and BBG actions taken in response
           and
                         to OIG findings and recommendations.
     Accomplishments
      Performance
                         A graphic summary of results achieved for the strategic goal and four-year trend
      Summary and
                         data
         Trends
        Resources        A summary of resources (dollars and people) devoted to the pursuit of the goal,
         Invested        including a comparison of resources invested for FY 2004 and FY 2005.
       Performance       Results history/trend, together with the current rating and a short impact
         Results         statement, for each of the FY 2005 results achieved.


      Performance Indicators and Targets: All of the targets were either maintained at FY
      2004 levels or increased for FY 2005. In addition, some indicators used in FY 2004
      were dropped and some new ones for FY 2005 were added.

      Performance Rating System: OIG has adopted a rating system that is a modified
      version of that developed by the Department. Results between the targeted level and
      five percentage points above or below the targeted level are considered to be,
      respectively, “slightly” above or below. Results of six percentage points more or less
      than the targeted level are considered to be “significantly” above or below the target
      level.

      Results Appendix: The overview and strategic goal chapters have been supplemented
      by an appendix showing the reports that were issued by OIG during FY 2005 in support
      of each of its strategic goals, as well as work that addresses the initiatives of the
      President’s Management Agenda.

                                    Performance Rating System

As part of OIG’s efforts to better demonstrate the relationship of its results to the
Department’s and provide a common frame of reference, OIG adopted substantially the
same rating system used by the Department to assess its performance results against
established targets. This results-rating methodology enables OIG to evaluate
systematically progress toward the targets set in its FY 2005 Performance Report. Using a
consistent set of criteria, as shown below, one of five performance ratings is assigned,
reflecting the extent to which a given target was achieved. By using substantially the
same criteria and rating system as the Department, OIG can establish a common basis for
evaluating and communicating its success in meeting its goals.




12                                                                                    FY 2005 Performance Report
                                   Office of Inspector General
                  Department of State and the Broadcasting Board of Governors
                                  FY 2005 Performance Report




    Performance    Significantly      Slightly Below                                              Significantly
                                                            On Target         Above Target
       Rating      Below Target           Target                                                  Above Target

      Criteria                                            Parameters
                  Missed FY 2005      Missed FY 2005      Met FY 2005         Exceeded FY         Exceeded FY
      Target      target by more      target by 5         target              2005 target by 5    2005 target by
      Status      than 5 percent      percent or less                         percent or less     more than 5
                                                                                                  percent
                  Significantly       Slightly impairs    No change in        Slightly improves   Significantly
                  impairs             program’s ability   program’s ability   program’s ability   improves
                  program’s ability   to achieve          to achieve          to achieve          program’s ability
                  to achieve          future years’       future years’       future years’       to achieve
    Impact on     future years’       performance         performance         performance         future years’
      Future      performance         targets,            targets             targets,            performance
    Operations    targets,            requiring                               requiring           targets,
                  requiring major     minimal                                 minimal upward      requiring major
                  downward            downward                                increases to        upward
                  revisions to        revisions to                            future targets      increases to
                  future targets      future targets                                              future targets


                      Performance Data Quality and Limitations

The performance data in the FY 2005 report are the most complete and accurate data in
any of the six performance reports issued under the Results Act and meet the standards
for reliability contained in OMB Circular A-11.

                                             Verification

Performance indicators are verified in a variety of ways, as appropriate for each indicator.
•     Each Assistant Inspector General (AIG) attests to the accuracy and completeness of the
      data for which he or she is responsible and which is reported in this report that is
      related to their respective office’s activities and results before this report is finalized.
•     Staff from the OIG’s Office of Executive Director audit the data used in this report to
      verify its completeness and accuracy before the report is finalized.
•     Some indicators, including those related to completion of a specific activity, such as
      conducting a review, are self-measuring and require little verification and validation,
      beyond confirmation that the activity has been completed satisfactorily.
•     Indicators involving recommendations resolved are based on compliance information
      tracked in OIG’s Compliance Analysis Tracking System (CATS) database, which allows
      OIG to analyze progress and trends in the resolution and implementation of OIG
      recommendations. The status of recommendations is verified periodically with
      Department and BBG offices responsible for addressing the recommendations and with
      OIG offices responsible for evaluating and tracking compliance with them.


FY 2005 OIG Performance Report                                                                                   13
                                 Office of Inspector General
                Department of State and the Broadcasting Board of Governors
                                FY 2005 Performance Report

•    Financial indicators are based on the mandated measures for audit and investigative
     operations set forth in the Inspector General Act. The figures are based on results
     provided by the responsible offices, which are tracked in CATS and reported in the
     Semiannual Report (SAR) to the Congress and the Annual Report of the President’s
     Council on Integrity and Efficiency (PCIE).
•    Performance data for investigative measures are tracked in OIG’s Case Management
     System and reported in the SAR and the Annual Report of the PCIE.
•    For internal performance goal indicators, the percentage of OIG staff meeting
     leadership training requirements is based on information provided by the Foreign
     Service Institute and verified against OIG staffing and training records. The average
     number of days from project start to product issuance and the percentage of projects
     completed within 180 days are based on data in the Project Tracking System (PTS) and
     OIG Timesheet System (OTS), as verified by documentation and periodic supervisory
     reviews, as appropriate.
Information from systems used to track OIG performance data is reviewed and verified
periodically throughout the year, from biweekly reviews of selected PTS data to monthly
reviews of compliance data and semiannual reviews of report issuance, cost efficiencies,
and investigative case data.        The data is considered adequately reliable for
decisionmaking and reporting under the Government Performance and Results Act. The
OIG’s Office of Management, Policy, and Planning oversees and coordinates the
verification and validation process throughout OIG and, as necessary, develops new
processes and recommends changes to strategies, indicators, and targets.

                                       Validation

Each of the performance goals has one to four indicators that measure a combination of
outputs (missions, bureaus, programs, and activities inspected or audited and reports
issued) and interim outcomes (recommendations resolved, potential monetary savings,
reports of investigations issued). These goals and measures are built on the premise that
the ability of the Department and BBG to achieve their own strategic goals and objectives
is enhanced by OIG’s objective reviews of the agencies’ component entities, programs,
and activities. The agencies also benefit from OIG’s identification of deficiencies and
vulnerabilities and OIG’s verification and validation of successes and strengths, its
recommendations for corrective actions, and, where appropriate, its efforts to ensure
that these actions are implemented and achieve the desired results.
There are four steps in the OIG’s efforts to achieve its mission and objectives and to help
the Department and BBG achieve theirs:

1. Inspecting, auditing, reviewing or investigating the agencies’ programs, operations,
   activities, and personnel.
2. Identifying weaknesses, vulnerabilities, and opportunities for improvements and
   recommending actions—including wider implementation of best practices identified
   during the reviews—to address them.
3. Getting Department or BBG agreement—at which point a recommendation is resolved—
   that a problem exists, improvements can be made, and corrective action will be
   taken.


14                                                                   FY 2005 Performance Report
                                Office of Inspector General
               Department of State and the Broadcasting Board of Governors
                               FY 2005 Performance Report

4. Department or BBG implementation of the agreed-upon action that solves the problem
   or leads to an improvement—at which point the recommendation is closed. OIG does
   not report on this step because it is the responsibility of the Department and BBG to
   implement the recommendations. OIG is confident, based on historical evidence, that
   once resolution is achieved, implementation will follow at an appropriate time.




FY 2005 OIG Performance Report                                                             15
                                  Office of Inspector General
                 Department of State and the Broadcasting Board of Governors
                                 FY 2005 Performance Report




                                                        Performance Section

                                            OIG Impact: Achieving Results
OIG’s value to the Department and BBG lies in its ability to provide independent,
objective, and professional assessments of their operations and activities and recommend
ways to strengthen effectiveness, efficiency, integrity and accountability. OIG does not
implement foreign policy, provide security, manage financial and administrative
operations, or ensure accountability. Through its oversight, however, OIG ensures that
the Department and BBG do better at these factors and all facets of their operations and
activities. OIG has established a separate but complementary set of strategic goals that
are expressed in terms of the impact of its work in ensuring the efficiency, effectiveness,
and integrity of programs and initiatives that are critical to achieving Department and
BBG strategic objectives. The majority of OIG’s activities directly support the
Department’s strategic objective to “Strengthen Diplomatic and Program Capabilities”
and the strategic goal of “Management Excellence,” although OIG’s work also supports
many of the Department’s and BBG’s other strategic goals. OIG’s measures of success are
based on the premise that the ability of the Department and BBG to achieve their goals
and missions is enhanced by OIG’s efforts to objectively review their programs and
activities, identify deficiencies and vulnerabilities, and recommend corrective actions.
The outcomes of OIG’s work are most evident in the actions taken by the Department and
BBG in response to audit and inspection recommendations and investigations.

      Comparison of FY 2005 and FY 2004 Performance Goal Ratings
          Comparison of Performance Rating by Performance Goal for FYs 2004
                                     and 2005
               Performance Rating




                                                                                                                            FY 04
                                                                                                                FY 05
                                                                                FY 04
                                                                                FY 05



                                                                                            FY 05
                                                        FY 05



                                                                    FY 05
                                                        FY 04




                                                                                                        FY 04




                                                                                                                            FY 05



                                                                                                                                                FY 05
                                                                                            FY 04
                                                                    FY 04




                                                                                                                                        FY 04
                                            FY 05
                                    FY 04
                                        SG



                                                          SG



                                                                     SG



                                                                                 SG



                                                                                             SG



                                                                                                            SG



                                                                                                                             IG



                                                                                                                                            IG
                                                                                                                                1P



                                                                                                                                               1P
                                           1P



                                                             2P



                                                                        3P



                                                                                    3P



                                                                                                4P



                                                                                                               4P




                                                                                                                                   G



                                                                                                                                                  G
                                              G



                                                                G



                                                                           G



                                                                                       G



                                                                                                   G



                                                                                                                  G



                                                                                                                                    1



                                                                                                                                                        2
                                                    1



                                                                1



                                                                            1



                                                                                        2



                                                                                                    1



                                                                                                                        2




                                                                     Strategic and Performance Goal
                                                                                 (SGPG)

          Significantly Below Target                                              Below Target                                         On Target
                        Above Target                                                                            Significantly Above Target



16                                                                                                                                  FY 2005 Performance Report
                                      Office of Inspector General
                     Department of State and the Broadcasting Board of Governors
                                     FY 2005 Performance Report



                              Strategic Goal 1: Foreign Policy
The Department and the BBG effectively, efficiently, and economically advance
             the foreign policy interests of the United States.

I. Public Benefit

The Department’s success in achieving U.S. foreign policy goals is influenced by the
effective management and efficient and economical operation of overseas missions,
domestic bureaus, and international broadcasting entities. OIG is mandated by the Foreign
Service Act of 1980, as amended, to assess the effectiveness of foreign policy
implementation. Through a program of post and bureau management inspections, OIG
evaluates whether policy goals and objectives are being achieved, U.S. interests are
effectively represented, and posts are operating in consonance with U.S. foreign policy.
Inspections also review whether resources are being used and managed effectively,
efficiently, and economically; activities and operations are being administered in
conformance with law and regulation; and management controls are in place to ensure
quality performance and to reduce the likelihood of mismanagement. Inspections identify,
and make recommendations to correct, vulnerabilities and inefficiencies, thereby
improving the ability of posts and bureaus to support the Department’s mission. OIG also
reviews and evaluates operations and programs with Foreign Policy implications, including
consular operations, export controls, border security, and international broadcasting.

II. Selected Results and Accomplishments in Support of Strategic Goal

                              Department and BBG actions in response to
                            OIG findings and recommendations resulted in:

 •    The merger and reorganization of the Bureaus of Arms Control and Nonproliferation and the expansion of the mandate of
      the Bureau of Verification and Compliance

 •    The resignation of a commissioner of a U.S. Commission following a critical inspection

 •    Improved program coordination between regional bureaus and the Bureaus of Educational and Cultural Affairs and
      International Information Programs

 •    Increases to the Diversity Visa surcharge to fully cover the visa’s cost

 •    More timely processing of exchange visitor visas


      Major accomplishments that will lead to significant results in future years:
 •   Issuing a joint Department of Defense-Department of State OIG assessment of Iraqi Police Training recommending greater
     involvement of Iraqi officials in all aspects of training and shifting the emphasis from the numbers trained to the quality of
     training, which will significantly refocus the emphasis of costly but critically important training programs and improve
     their outcomes

 •   Identifying potential savings to the Department of $600,000 by consolidating administrative support services at Embassy
     Paris

 •   Recommending more and better coordination, interaction and integration between the missions’ public affairs officers and
     those of other foreign affairs agencies at post, which will lead to more consistent and orchestrated public diplomacy



FY 2005 OIG Performance Report                                                                                                        17
                                                         Office of Inspector General
                                        Department of State and the Broadcasting Board of Governors
                                                        FY 2005 Performance Report


III. Performance Summary and Trend

                                              Average Overall Strategic Goal Rating = Above Target

                           Performance Rating Distribution                                                   Performance Rating Trends:
                                       For Three Reported Results                                                FY 2002 to FY 2005
                                                                                                            Percentage of Results On or Above Target
                                                                       25%
                                25%
                                                                                                            100%
                                                                                                             80%




                                                                                               Percentage
                                                                                                             60%
                                                                                                             40%
                                                      50%                                                    20%
                                          Significantly Above target                                          0%
                                          Above target
                                          On Target                                                                FY 2002 FY 2003 FY 2004 FY 2005
                                          Below target                                                                            Fiscal Year
                                          Significantly Below target




IV. Resources Invested in FY 2004 and FY 2005

                                      Human Resources                                                       Budget Authority ($ in Millions)


                          100
                                                                                             $10.0
Staff on Hand at End of




                          80
                                                                                              $8.0
                                                                             $ in Millions




                          60                                                                  $6.0
          Year




                                                                                                                        $8.8                    $9.1
                          40                                                                  $4.0
                                           57                  52
                          20                                                                  $2.0

                           0                                                                  $0.0
                                       2004               FY 2005                                                  FY 2004                 FY 2005
                                                Fiscal Year                                                                  Fiscal Year




18                                                                                                                        FY 2005 Performance Report



                                                                                                               15,609
                                       Office of Inspector General
                      Department of State and the Broadcasting Board of Governors
                                      FY 2005 Performance Report


V. Performance Results

Annual Performance Goal #1
Improve the operations of overseas missions, domestic bureaus, and international broadcasting
activities through inspections, audits, and program evaluations.

          Indicator #1: Number of missions and bureaus inspected and reports issued
                              49               49                  50                 50                49
              50

              40

              30
              20

              10

              0
                     FY 2002 Actual    FY 2003 Actual      FY 2004 Actual     FY 2005 Actual     FY 2005 Target

                     OIG exceeded its target. As a result, these posts and bureaus should be better managed today than they were
Impact
                     prior to the inspections, making them more effective, efficient, and economical.
Data                 Source                                OIG Semiannual Report
                                                           High – attested to by the AIG for Inspections and audited internally by the
                     Verification Confidence Level
                                                           Office of Management, Policy, and Planning
                     Validation Confidence Level           Moderate – output that leads to actions and improvements




   Indicator #2: Number of reports issued on systemic/regional/policy issues and programs

         20

                                                                                       15
         15
                                              10                                                          11
                                                                   10
         10
                          8

         5


         0
                   FY 2002 Actual     FY 2003 Actual      FY 2004 Actual       FY 2005 Actual      FY 2005 Target

                     OIG significantly exceeded its target. As a result, a significant number of operations and programs should be
Impact
                     more effective and/or efficient today than they were prior to the review.
Data                 Source                                OIG Semiannual Report
                                                           High – attested to by the AIGs for Audits, Inspections, and IT and audited
                     Verification Confidence Level
                                                           internally by the Office of Management, Policy, and Planning
                     Validation Confidence Level           Moderate – output that leads to actions and improvements




FY 2005 OIG Performance Report                                                                                                   19
                                          Office of Inspector General
                         Department of State and the Broadcasting Board of Governors
                                         FY 2005 Performance Report

Annual Performance Goal #1
Improve the operations of overseas missions, domestic bureaus, and international broadcasting
activities through inspections, audits, and program evaluations.

       Indicator #3: Percentage of recommendations resolved within six months of issuance

                                                                       89%
                                                                                         78%                80%
               80%                                 72%
                                 62%
               60%

               40%

               20%

                   0%
                          FY 2002 Actual    FY 2003 Actual     FY 2004 Actual    FY 2005 Actual     FY 2005 Target


                        OIG narrowly missed its target. However, management’s timely agreement with almost 8 out of 10 OIG foreign
                        policy-related recommendations significantly increases the likelihood that the vulnerabilities and deficiencies
Impact
                        identified will be addressed relatively quickly, improving the management of those entities and their
                        effectiveness in implementing U.S. foreign policy.
Data                    Source                                 OIG Compliance Analysis Tracking System
                                                               High – attested to by the AIGs for Audits, IT and Inspections and audited
                        Verification Confidence Level
                                                               internally by the Office of Management, Policy, and Planning
                        Validation Confidence Level             Moderate – interim outcome that leads to action and improvements
Reasons for             Results were slightly below targeted performance levels, and considerably below FY 2004 results, due to the
shortfall and           need to shift resources supporting compliance efforts to other important work as significant unanticipated
when target will        increases in travel costs and reductions in staff severely strained operations. Consequently, OIG’s ability to
be achieved             ensure that the Department and BBG responded in a timely fashion was compromised. It should be noted that
                        this still represents considerable improvement over two of the last three years’ results. OIG plans to meet or
                        exceed this target level in FY 2006.

                              Indicator #4: Percentage of significant recommendations
                                       resolved within six months of issuance


                                                                      76%                 80%
                                                                                                               75%
           80%
                             54%
           60%                                   50%

           40%

           20%

            0%
                    FY 2002 Actual         FY 2003 Actual     FY 2004 Actual       FY 2005 Actual      FY 2005 Target

                        OIG exceeded its target. Management’s timely agreement with 8 out of 10 of OIG‘s most important foreign
                        policy-related recommendations greatly increases the likelihood that the significant vulnerabilities and
Impact
                        deficiencies identified will be addressed relatively quickly, improving their effectiveness and efficiency in
                        implementing U.S. foreign policy.
Data                    Source                                 OIG Compliance Analysis Tracking System
                                                               High – attested to by the AIGs for Audits, IT and Inspections and audited
                        Verification Confidence Level
                                                               internally by the Office of Management, Policy, and Planning
                        Validation Confidence Level            Moderate – interim outcome that leads to action and improvements



20                                                                                                  FY 2005 Performance Report
                                     Office of Inspector General
                    Department of State and the Broadcasting Board of Governors
                                    FY 2005 Performance Report


                                   Strategic Goal 2: Security
The Department and the BBG adequately protect the people, information, and
       facilities under their control in the United States and abroad.

I. Public Benefit
With the continuing threat of terrorism and regional instability in the post-9/11
environment, the security of U.S. personnel, facilities, and information remains an issue
of overriding importance in terms of personal and national security and the billions of
dollars appropriated annually to protect them. OIG security and information security
inspections and audits play an essential role in identifying and making recommendations
to address security vulnerabilities that could compromise national security and threaten
the safety and well-being of U.S. personnel and facilities domestically and abroad.

II. Selected Results and Accomplishments in Support of Strategic Goal

                             Department and BBG actions in response to
                           OIG findings and recommendations resulted in:
 •   Removing information from embassy websites and publications that increased vulnerability to anti-American violence and
     terrorism of U.S. citizen faculty and students at overseas schools
 •   Relocating Embassy Amman’s Iraq Support Unit and reducing vulnerabilities
 •   Strengthening the security of classified activities at Embassy Beijing’s new embassy compound
 •   Reassessing the respective responsibilities of the Office of Counterterrorism and the Bureau of Diplomatic Security for
     the Anti-Terrorism Assistance Program
 •   Creating a condensed version of guidelines for perimeter lighting to assist regional security officers at all worldwide
     locations and instructing them to work with their regional security engineering officer to perform a lighting survey
 •   Discontinuing domestic revalidation of non-diplomatic visas, eliminating a potential border security vulnerability
 •   BBG reconsidering how it performs Federal Information Security Management Act and information management oversight
     and reorganization of its approach so that IT systems at transmitting stations are managed centrally

     Major accomplishments that will lead to significant results in future years:
 •   Identifying $21.8 million in potential funds put to better use from an Iraq security contract
 •   Partnering OIG investigators with the Bureaus of Consular Affairs and Diplomatic Security, the Department of Justice, and
     other agencies in a proactive effort, known as Passport Sentinel, which will strengthen border security by identifying
     individuals using illegal methods to obtain U.S. passports
 •   Recommending expanding Imminent Danger Notification Systems at several posts to include surveillance detection
     personnel, which will increase their ability to react to a terrorist attack
 •   Recommending improved post emergency action plans which will improve emergency preparedness and the safety of U.S
     government personnel and Americans abroad
 •   Recommending expanding, as funding permits, the joint program of the bureaus of Consular Affairs and Diplomatic
     Security (DS) to establish DS special investigator positions at the most fraud prone-posts to identify and deter fraud
 •   Highlighting the need for better coordination among bureaus that have information security functions, consistent with
     the responsibilities of the Chief Information Officer, that will improve information security in the Department




FY 2005 OIG Performance Report                                                                                                   21
                                                   Office of Inspector General
                                  Department of State and the Broadcasting Board of Governors
                                                  FY 2005 Performance Report

III. Performance Summary and Trend

                                          Average Overall Strategic Goal Rating = Above Target

                           Performance Rating Distribution                                                 Performance Rating Trends:
                                 For Three Reported Results                                                    FY 2002 to FY 2005
                                                                                                          Percentage of Results On or Above Target
                                 33%
                                                                      33%

                                                                                                          100%
                                                                                                           80%




                                                                                             Percentage
                                                                                                           60%
                                                                                                           40%
                                                           33%                                             20%
                                       Significantly Above target                                           0%
                                       Above target                                                              FY 2002 FY 2003 FY 2004 FY 2005
                                       On Target
                                       Below target                                                                          Fiscal Year
                                       Significantly Below target




IV. Resources Invested in FY 2004 and FY 2005

                                Human Resources                                                           Budget Authority ($ in Millions)


                          100
Staff on Hand at End of




                                                                                            $10.0
                          80
                                                                                             $8.0
                                                                            $ in Millions




                          60
          Year




                                                                                             $6.0
                          40
                                                                                             $4.0                   $7.5
                                        55
                          20                                     30                                                                    $4.6
                                                                                             $2.0
                           0                                                                 $0.0
                                 2004                  FY 2005                                                   FY 2004          FY 2005
                                             Fiscal Year
                                                                                                                       Fiscal Year




22                                                                                                                    FY 2005 Performance Report
                                          Office of Inspector General
                         Department of State and the Broadcasting Board of Governors
                                         FY 2005 Performance Report


V. Performance Results

Annual Performance Goal #1
Assess security for personnel, facilities, and information at Department and BBG facilities
worldwide and ensure that necessary corrective actions are implemented.

         Indicator #1: Number of reports issued on security programs, including systemic/
                               regional/policy issues and programs
                  20
                                                                                         16
                  16
                                                                                                         12
                  12                                                   9
                                  7                 7
                     8

                     4

                     0
                         FY 2002 Actual     FY 2003 Actual    FY 2004 Actual    FY 2005 Actual    FY 2005 Target

                         OIG significantly exceeded its target. As a result, Department and BBG personnel, information and facilities
Impact
                         should be more secure.
Data                     Source                              OIG Semiannual Report
                                                             High – attested to by the AIGs for Audits, IT and Inspections and audited
                         Verification Confidence Level
                                                             internally by the Office of Management, Policy, and Planning
                         Validation Confidence Level         Moderate – output that leads to actions and improvements


       Indicator #2: Percentage of recommendations resolved within six months of issuance

          100%                                    90%
                              82%                                      75%                                     80%
                                                                                           72%
            80%

            60%

            40%

            20%

             0%
                     FY 2002 Actual       FY 2003 Actual       FY 2004 Actual      FY 2005 Actual      FY 2005 Target

                         OIG missed its target. However, management’s timely agreement with almost 7 out of 10 OIG security-related
Impact                   recommendations significantly increases the likelihood that the vulnerabilities and deficiencies identified will
                         be addressed relatively quickly, improving the security of U.S. personnel, information and facilities.
Data                     Source                              OIG Compliance Analysis Tracking System
                                                             High – attested to by the AIGs for Audits, IT, and Inspections and audited
                         Verification Confidence Level
                                                             internally by the Office of Management, Policy, and Planning
                         Validation Confidence Level         Moderate – interim outcome that leads to actions and improvements
Reasons for              Results were significantly below targeted performance levels and slightly below FY 2004 results. The need to
shortfall and when       shift resources supporting compliance efforts to other important work as significant unanticipated increases in
target will be           travel costs and staff shortages severely strained operations and impeded OIG’s ability to ensure that the
achieved                 Department and BBG responded in a timely fashion. OIG plans to meet or exceed this target level in FY 2006.




FY 2005 OIG Performance Report                                                                                                        23
                                   Office of Inspector General
                  Department of State and the Broadcasting Board of Governors
                                  FY 2005 Performance Report


Annual Performance Goal #1
Assess security for personnel, facilities, and information at Department and BBG facilities
worldwide and ensure that necessary corrective actions are implemented.

       Indicator #3: Percentage of significant recommendations resolved within six months of
                                               issuance

               100%                          93%
                                                                                 80%
                                                                                                  75%
                80%

                60%

                40%

                20%         N/A                                 9%

                 0%
                      FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target


                  OIG exceeded its target. Management’s timely agreement with 8 out of 10 of OIG’s most significant security-
Impact            related recommendations greatly increases the likelihood that the vulnerabilities and deficiencies identified
                  will be addressed relatively quickly, improving the security of U.S. personnel, information, and facilities.
Data              Source                             OIG Compliance Analysis Tracking System
                                                     High – attested to by the AIGs for Audits, IT, and Inspections and audited
                  Verification Confidence Level
                                                     internally by the Office of Management, Policy, and Planning
                  Validation Confidence Level        Moderate – interim outcome that leads to action and improvements




24                                                                                          FY 2005 Performance Report
                                    Office of Inspector General
                   Department of State and the Broadcasting Board of Governors
                                   FY 2005 Performance Report



Strategic Goal 3: Financial Management and Administrative
                          Support
The Department and the BBG have the necessary financial and support systems
          and controls to meet legal and operational requirements.

I. Public Benefit

A significant portion of the foreign affairs budget is devoted to developing, maintaining,
and securing the infrastructures—including physical facilities, information systems,
financial management, grants management, procurement, personnel systems, and
administrative support services—that underlie and support the Department’s operations
and provide a base for the conduct of U.S. foreign policy. This strategic goal comprises
many of the operations encompassed within the Department’s strategic objective to
strengthen diplomatic and program capabilities and its strategic goal to achieve
management and organizational excellence, including financial management, contracts
and grants, property management, procurement and departmental support activities,
human resources, and other international programs and activities. OIG audits and program
evaluations assess these operations to evaluate whether established goals and objectives
are achieved and resources are used economically and efficiently; to assess whether
results are consistent with laws, regulation, and good business practice; and to test
financial accountability and the reliability of financial statements.

II. Selected Results and Accomplishments in Support of Strategic Goal

                             Department and BBG actions in response to
                           OIG findings and recommendations resulted in:
 •   Recovery by the Department of $3.5 million in deobligated funds from the Havana security construction upgrade project,
     which were subsequently used to fund other security upgrade projects

 •   Reimbursements of approximately $685,000 for diesel fuel overcharges at the Jordan International Police Training Center

 •   Savings of over $250,000 in the cost of a new contract for cellular services at an overseas mission

 •   Significantly improved support to Embassy Baghdad from Embassy Amman, including better communications between
     Amman’s Iraq Support Unit (ISU) and Baghdad and better trained and more effective ISU staffing

 •   Establishment of a committee for financial assistance to ensure adequate controls for awarding, monitoring, and
     accounting for federal assistance, including joint work with the U.S. Agency for International Development to establish a
     system of accounting for it


     Major accomplishments that will lead to significant results in future years:
 •   Identifying untapped rightsizing and regionalization opportunities and redundant administrative operations and making
     recommendations to address them that will reduce costs and security vulnerabilities and improve operations.

 •   Identifying a potentially material understatement of extensive aircraft and spare parts inventory that could affect the
     Department’s previously issued FY 2004 financial statements, which will result in more accurate financial statements




FY 2005 OIG Performance Report                                                                                                   25
                                                                  Office of Inspector General
                                                 Department of State and the Broadcasting Board of Governors
                                                                 FY 2005 Performance Report


III. Performance Summary and Trend

                                                       AVERAGE OVERALL STRATEGIC GOAL RATING = On Target

                                     Performance Rating Distribution                                                      Performance Rating Trends:
                                               For Four Reported Results                                                      FY 2002 to FY 2005
                                                                                                                         Percentage of Results On or Above Target

                                                                                                                         100%
                                                                                                                          80%
                                    50%




                                                                                                            Percentage
                                                                                    50%
                                                                                                                          60%
                                                                                                                          40%
                                                                                                                          20%
                                                    Significantly Above target                                             0%
                                                    Above target                                                                 FY 2002 FY 2003 FY 2004 FY 2005
                                                    On Target
                                                    Below target                                                                                   Fiscal Year
                                                    Significantly Below target




IV. Resources Invested in FY 2004 and FY 2005

                                            Human Resources                                                              Budget Authority ($ in Millions)


                               70
                                                                          13                              $12.0
Staff on Hand at End of Year




                               60
                                                                                                          $10.0                                                  $2.2
                               50
                                                                                          $ in Millions




                                                 13                                                        $8.0
                               40
                                                                                                           $6.0                       $2.1
                               30                                         57                                                                                     $8.4
                                                                                                           $4.0
                               20                36                                                                                   $5.1
                                                                                                           $2.0
                               10
                                                                                                           $0.0
                               0                                                                                           FY 2004 ($7.2 total)     FY 2005 ($10.6 total)
                                      FY 2004 (49 total)       FY 2005 (70 total)
                                                                                                                                             Fiscal Year
                                                      Fiscal Year
                                                                                                                                   PG1                           PG2
                                               PG1                        PG2




26                                                                                                                                       FY 2005 Performance Report



                                                                                                                            15,609
                                       Office of Inspector General
                      Department of State and the Broadcasting Board of Governors
                                      FY 2005 Performance Report


V. Performance Results

Annual Performance Goal #1
Identify vulnerabilities in Department and BBG financial and administrative support programs and
recommendations to improve them.

                          Indicator #1: Number of reports issued on programs reviewed

                50                                                 42
                40                                                                   36
                                                                                                      25
                30             21              21
                20

                10

                 0
                      FY 2002 Actual    FY 2003 Actual    FY 2004 Actual     FY 2005 Actual     FY 2005 Target

                      OIG significantly exceeded its target. As a result, a significant number of operations and programs should be
Impact
                      more effective and/or efficient today than they were prior to the reviews.
Data                  Source                             OIG Semi-annual Report
                                                         High – attested to by the AIGs for Audits, IT, and Inspections and audited
                      Verification Confidence Level
                                                         internally by the Office of Management, Policy, and Planning
                      Validation Confidence Level        Moderate – output that leads to actions and improvements


       Indicator #2: Percentage of recommendations resolved within six months of issuance

                 80%                                               72%
                                                67%                                                   68%

                 60%                                                                45%
                                44%
                 40%

                 20%

                     0%
                          FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target

                      OIG missed its target by a significant percentage that was substantially below FYs 2004. 2003, and 2002.
                      Management’s timely agreement with almost half of OIG’s financial and administrative support-related
                      recommendations provides some assurance that some vulnerabilities and deficiencies identified will be
Impact
                      addressed relatively quickly and result in improved effectiveness and efficiency in the reviewed programs and
                      operations. However, it implies that more than half of these vulnerabilities and deficiencies are likely to
                      continue longer.
Data                  Source                             OIG Compliance Analysis Tracking System
                                                         High – attested to by the AIGs for Audits, IT, and Inspections and audited
                      Verification Confidence Level
                                                         internally by the Office of Management, Policy, and Planning
                      Validation Confidence Level         Moderate – output that leads to actions and improvements
Reasons for           Results were significantly below targeted performance levels and FY 2004 results, due to the need to shift
shortfall and when    resources supporting compliance efforts to other important work as significant unanticipated increases in travel
target will be        costs and staff shortages severely strained operations. Consequently, OIG’s ability to ensure that the
achieved              Department and BBG responded in a timely fashion was compromised. OIG plans to meet or exceed this target
                      level in FY 2006.



FY 2005 OIG Performance Report                                                                                                    27
                                       Office of Inspector General
                      Department of State and the Broadcasting Board of Governors
                                      FY 2005 Performance Report


Annual Performance Goal #1
Identify vulnerabilities in Department and BBG financial and administrative support programs and
recommendations to improve them.

       Indicator #3: Percentage of significant recommendations resolved within six months of
                                               issuance

                 60%                             50%                  50%                               50%

                 40%                                                                   30%
                                 29%

                 20%


                     0%
                           FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target


                      OIG missed its target by a significant percentage that was substantially below FYs 2004 and 2003.
Impact                Consequently more than two-thirds of the most significant financial and administrative support-related
                      vulnerabilities and deficiencies identified by OIG are likely to continue longer.
Data                  Source                                  OIG Compliance Analysis Tracking System
                                                              High – attested to by the AIGs for Audits, IT, and Inspections and audited
                      Verification Confidence Level
                                                              internally by the Office of Management, Policy, and Planning
                      Validation Confidence Level           Moderate – interim outcome that leads to action and improvements
 Reasons for          Results were significantly below targeted performance levels due to the need to shift resources supporting
shortfall and when    compliance efforts to other important work as unanticipated significant increases in travel costs and staff
target will be        shortages severely strained operations. This compromised OIG’s ability to ensure that the Department and BBG
achieved              responded in a timely fashion. OIG plans to meet or exceed this target level in FY 2006.


Annual Performance Goal #2
Evaluate Department and BBG progress in addressing priority issues such as the Secretary’s
management priorities, major management challenges, high-risk areas, performance
measurement, and the President’s Management Agenda.

         Indicator #1: Percentage of major management challenges addressed in OIG reports
                                                                                        100%

                                                                                                           80%
               80%



               40%
                                 N/A              N/A                  N/A

                 0%
                          FY 2002 Actual   FY 2003 Actual     FY 2004 Actual     FY 2005 Actual    FY 2005 Target

                      OIG significantly exceeded its target. As a result of OIG reviewing some aspect of each of the Department’s
Impact                management challenges and, where warranted, making recommendations to improve them, the Department
                      should have made progress on addressing the challenges.
Data                  Source                                AIGs for Audits, IT and Inspections and Semiannual Reports.
                                                            High – attested to by the AIGs for Audits, IT, and Inspections and audited
                      Verification Confidence Level
                                                            internally by the Office of Management, Policy, and Planning
                      Validation Confidence Level           Moderate – interim outcome that leads to action and improvements


28                                                                                                 FY 2005 Performance Report
                                     Office of Inspector General
                    Department of State and the Broadcasting Board of Governors
                                    FY 2005 Performance Report



                             Strategic Goal 4: Accountability
 The Department and the BBG ensure accountability and prevent or eliminate
    fraud, waste, abuse, and mismanagement in programs and operations.

I. Public Benefit

All government employees must conform to fundamental guiding principles governing
professional and ethical conduct, as defined in law, executive order, regulation, policy,
and procedure, as well as personal and management accountability. OIG promotes
accountability and integrity in Department programs and operations through audits of
selected grantees and contractors to determine whether the organizations expended
federal funds for the intended purpose of the agreement and in accordance with
applicable federal laws and regulations related to the agreement terms and conditions.
OIG also is mandated to prevent and detect waste, fraud, and mismanagement. Specific
allegations or other information indicating possible violations of law or regulation are
investigated by OIG investigators, supported by experts from other OIG offices, as
appropriate. In addition, OIG proactively educates and shares best practices with targeted
audiences—including new ambassadors, deputy chiefs of mission, and Foreign and Civil
Service employees—to improve adherence to standards of accountability by ensuring that
employees of the foreign affairs agencies are informed of and understand the standards
specific to their professional and ethical conduct.

II. Selected Results and Accomplishments in Support of Strategic Goal

                             Department and BBG actions in response to
                           OIG findings and recommendations resulted in:

 •   Recovery of almost $2 million in questioned costs from a Department contract for Afghanistan protective services

 •   Savings of $1.4 million in contract costs resulting from a double-billing error by a contractor

 •   20 judicial actions, 22 administrative actions, and $900,000 in fines and recoveries


     Major accomplishments that will lead to significant results in future years:
 •   Identifying potential savings of $7.2 million in questioned costs and funds put to better use beyond those identified under
     other goals

 •   Recommending improvements to strengthen the vetting procedures for gaining admittance into the Exchange Visitor
     Program that will increase the Department’s ability to monitor compliance and abuse by designated sponsor
     organizations




FY 2005 OIG Performance Report                                                                                                     29
                                                                 Office of Inspector General
                                                Department of State and the Broadcasting Board of Governors
                                                                FY 2005 Performance Report




III. Performance Summary and Trend

                                                       Average Overall Strategic Goal Rating = Above Target

                                    Performance Rating Distribution                                                       Performance Rating Trends:
                                              For Four Reported Results                                                       FY 2002 to FY 2005
                                                                                                                         Percentage of Results On or Above Target
                                         25%
                                                                                                                         100%
                                                                                                                          80%




                                                                                                            Percentage
                                                                                    50%                                   60%
                                                                                                                          40%
                                         25%
                                                                                                                          20%
                                                     Significantly Above target                                            0%
                                                     Above target
                                                     On Target                                                                   FY 2002 FY 2003 FY 2004 FY 2005
                                                     Below target                                                                                 Fiscal Year
                                                     Significantly Below target




IV. Resources Invested in FY 2004 and FY 2005

                                           Human Resources                                                               Budget Authority ($ in Millions)


                               60
Staff on Hand at End of Year




                                                                                                          $8.0
                               50
                                                30
                                                                                                          $6.0                       $3.8                       $3.3
                               40                                         25
                                                                                          $ in Millions




                               30
                                                                                                          $4.0
                               20
                                                29                        26
                                                                                                          $2.0                       $4.1                       $4.1
                               10

                               0
                                     FY 2004 (59 total)        FY 2005 (51 total)                         $0.0
                                                                                                                          FY 2004 ($7.9 total)      FY 2005 ($7.4 total)
                                                     Fiscal Year
                                                                                                                                            Fiscal Year

                                              PG1                         PG2
                                                                                                                                   PG1                          PG2




30                                                                                                                                       FY 2005 Performance Report



                                                                                                                            15,609
                                         Office of Inspector General
                        Department of State and the Broadcasting Board of Governors
                                        FY 2005 Performance Report


V. Performance Results

Annual Performance Goal #1
Identify potential monetary and nonmonetary benefits resulting from audit, inspection, program
evaluation, and investigative findings concerning fraud, waste, abuse, and mismanagement and
improve the efficiency of Department operations and compliance with applicable contract and
grant agreements.

                                        Indicator #1: Return on investment for audits

               $5.0                                                                                  $5.01

               $4.0

               $3.0           $2.49

               $2.0                                   $1.29
                                                                              $1.26                                        $1.10
               $1.0

               $0.0
                       FY 2002 Actual          FY 2003 Actual         FY 2004 Actual         FY 2005 Actual         FY 2005 Target

                         OIG significantly exceeded its target, identifying more than 5 dollars in potential monetary benefits for every 1
Impact
                         dollar expended on Office of Audit operating costs.
Data                     Source                                      OIG Compliance Analysis Tracking System and FY 2005 obligations
                                                                     High – attested to by the AIG for Audits and the Executive Director and
                         Verification Confidence Level
                                                                     audited internally by the Office of Management, Policy, and Planning
                         Validation Confidence Level                 Moderate – interim outcome that leads to actual savings at a later date



                                        Indicator #2: Monetary Benefits1 in $ millions

                $45          $40.04
                $36                                                                               $31.5

                $27

                $18                                  $13.0                                                              $8.6
                                                                             $6.8
                 $9

                 $0
                       FY 2002 Actual         FY 2003 Actual        FY 2004 Actual         FY 2005 Actual        FY 2005 Target

                         OIG significantly exceeded its target, resulting in almost $3 million in recoveries, fines, and cost savings and
Impact
                         more than $28.5 million in potential monetary savings in the future
Data                                                                 OIG Compliance Analysis Tracking System and Investigative Case
                         Source
                                                                     Management System
                                                                     High – attested to by the AIGs for Audits and Investigations and audited
                         Verification Confidence Level
                                                                     internally by the Office of Management, Policy, and Planning
                         Validation Confidence Level                 High – a combination of actual recoveries and potential future savings

1
  Monetary Benefits include identified questioned costs, potential funds put to better use, cost savings, efficiencies, recoveries, restitution,
and fines.



FY 2005 OIG Performance Report                                                                                                                     31
                                   Office of Inspector General
                  Department of State and the Broadcasting Board of Governors
                                  FY 2005 Performance Report




Annual Performance Goal #2
Promote professional and ethical conduct and accountability; and investigate fraud, waste,
abuse, and mismanagement.


         Indicator #1: Number of activities focused on key Department vulnerabilities

             30                                                                  27
             25
             20
                                                                                                 13
             15
             10
              5
                           N/A             N/A                 N/A
              0
                  FY 2002 Actual    FY 2003 Actual    FY 2004 Actual    FY 2005 Actual    FY 2005 Target



                  OIG significantly exceeded its target. These proactive outreach activities should increase awareness of best
Impact            practices and avoidable missteps by Department and BBG personnel, resulting in fewer problems and errors
                  relating to compliance with laws, regulations, policies, and procedures.
Data              Source                               Attestations from the AIGs
                                                       High – attested to by the AIGs for Audits, Inspections, Investigations and
                  Verification Confidence Level        IT and audited internally by the Office of Management, Policy, and
                                                       Planning
                  Validation Confidence Level          Moderate – output that leads to action and improvements



         Indicator #2: Percentage of reports of investigation issued within six months

                                                                                100%

           90%
                                                                                                    60%
           60%


           30%
                            N/A              N/A               N/A
            0%
                   FY 2002 Actual    FY 2003 Actual    FY 2004 Actual    FY 2005 Actual     FY 2005 Target


                  OIG significantly exceeded its target. The sooner allegations are investigated and proved or disproved, the
Impact
                  sooner justice is served and individuals are exonerated or face appropriate consequences
Data              Source                               Investigative Case Management System
                                                       High – attested to by the AIG for Investigations and audited internally by
                  Verification Confidence Level
                                                       the Office of Management, Policy, and Planning
                  Validation Confidence Level          Moderate – output that leads to action and improvements




32                                                                                         FY 2005 Performance Report
                                     Office of Inspector General
                    Department of State and the Broadcasting Board of Governors
                                    FY 2005 Performance Report



                                       Internal Enabling Goal
                                        OIG Management Excellence.

I. Public Benefit

In addition to the performance goals supporting OIG’s four strategic goals, OIG has
established two internal “enabling” goals that support its remaining strategic goals by
ensuring that it has the people it needs and that its work results in timely products. These
and several other initiatives related to internal management improvements, discussed
below, are directed toward ensuring that OIG operations are efficient, effective, and
well-structured to achieve OIG’s core statutory mission.

II. Selected Results in Support of Strategic Goal

                                                  OIG actions include:

 •   Flattening the organizational structure, reducing layers of redundancy, and eliminating three offices and their associated
     Assistant Inspector General and Deputy Assistant Inspector General positions

 •   Participating in the Department’s initiative to ensure that annual performance plans for its Civil Service employees are
     linked to the Bureau Performance Plan and that pay increases for the Senior Executive Service are tied to performance

 •   Working with the Department to automate OIG’s hiring process to increase the speed and reduce the cost of processing
     personnel actions

 •   Establishing an aggressive, comprehensive information-assurance program to better protect critical information resources by
     developing and updating several IT-specific, standard operating practices for operations, security, strategic planning, and
     Configuration Control Board activities



III. Performance Summary and Trend

                         AVERAGE OVERALL STRATEGIC GOAL RATING = On Target

        Performance Rating Distribution                                                      Performance Rating Trends:
                   For Four Reported Results                                                     FY 2002 to FY 2005
                                                                                            Percentage of Results On or Above Target
              25%
                                                                                            100%
                                                                                            80%
                                                                               Percentage




                                                           50%                              60%
                                                                                            40%
              25%
                                                                                            20%
                        Significantly Above target                                           0%
                        Above target
                        On Target                                                                  FY 2002 FY 2003 FY 2004 FY 2005
                        Below target                                                                           Fiscal Year
                        Significantly Below target




FY 2005 OIG Performance Report                                                                                                         33
                                      Office of Inspector General
                     Department of State and the Broadcasting Board of Governors
                                     FY 2005 Performance Report


IV. Resources Invested in FY 2004 and FY 2005

     All human resources and dollars expended under OIG’s budget authority in support of this
                 internal enabling goal are allocated to OIG’s four strategic goals.


V. Performance Results

Annual Performance Goal #1
Ensure employees have the professional skills and expertise necessary to fulfill OIG’s mission and
goals.

         Indicator #1: Percentage of GS-13 through GS -15 employees and Foreign Service
             equivalents completing Department leadership and management training


               100%
                                                                                   77%                75%
                   80%
                   60%
                   40%
                   20%                                            N/A
                                  N/A           N/A
                   0%
                         FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target

                         OIG exceeded its target. The training received should produce a more motivated and capable staff that will
Impact
                         increase OIG’s effectiveness and efficiency
Data and Results         Source                                Foreign Service Institute (FSI) and OIG training records
                                                               High – based on documentation provided by FSI, audited internally by
                         Verification Confidence Level         the Office of Management, Policy, and Planning (MPP), and attested
                                                               to by the AIG/MPP
                         Validation Confidence Level           Moderate – output that leads to actions and improvements




                                                                                   15,609



34                                                                                            FY 2005 Performance Report
                                       Office of Inspector General
                      Department of State and the Broadcasting Board of Governors
                                      FY 2005 Performance Report


Annual Performance Goal #2
Continuously improve OIG products & processes for maximum impact in meeting customer needs.

                      Indicator #1: Percentage of customers rating OIG work as having
                                 a significant impact in improving operations

                       30
                       25
                       20                                                                        Develop
                       15                                                          Survey        Baseline
                       10                                                         Deferrred
                                 N/A              N/A                N/A
                        5
                        0
                            FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target


                      OIG did not develop and test the survey as planned, thereby significantly missing its target. Customer
Impact
                      feedback would have provided a more objective evaluation of the value and impact of OIG’s efforts.
Data and Results      Source                                To Be Determined
                      Verification Confidence Level         N/A – since the development of the survey was deferred
                                                             High – an evaluation of the outcomes/results of OIG efforts by the
                      Validation Confidence Level
                                                             customers who use or benefit directly from them
Reasons for           Initial survey development was delayed, pending confirmation of a permanent Inspector General, which did not
shortfall and when    occur until the third quarter. At that time it was determined that a) the survey could not be developed and
target will be        provided to customers in time to obtain a sufficient response rate by the end of the FY and b) the resources
achieved              required to support this effort needed to be dedicated to other important work as significant increases in
                      travel costs and staff shortages severely strained operations. OIG is considering whether to retain this indicator
                      in FY 2006, given the expectation of continued resource shortages and urgent competing priorities.


                       Indicator #2:Average number of days from start to issuance for
                                   inspection reports and program reviews


                     300                            256
                                  217
                     250                                            182              188               180
                     200
                     150
                     100
                      50
                       0
                           FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target

                      OIG missed its target (a result that is higher than the target is a worse result) and did slightly worse than FY
                      2004, although considerably better than in the years prior to 2004. The sooner a report is provided to the
Impact
                      Department, the BBG, and the Congress, the sooner corrective actions can be implemented. The delay of
                      approximately one week to complete a project, however, was not expected to have any significant impact.
Data                  Source                                OIG Project Tracking System
                                                            High – attested to by the AIGs for Audits, Inspections and IT, and audited
                      Verification Confidence Level
                                                            internally by the Office of Management, Policy, and Planning
                      Validation Confidence Level           Moderate – interim outcome that leads to action and improvements
Reason for            Unanticipated significant increases in travel costs and staff shortages severely strained operations and required
shortfall and         OIG to shift staff, adversely affecting its ability to achieve this target. OIG plans to meet or exceed this target
when target will      in FY 2006.
be achieved

FY 2005 OIG Performance Report                                                                                                      35
                                Office of Inspector General
               Department of State and the Broadcasting Board of Governors
                               FY 2005 Performance Report


Annual Performance Goal #2
Continuously improve OIG products and processes for maximum impact in meeting customer
needs.

         Indicator #3: Average number of days from start to issuance for audit reports
                            324              341
             350
                                                               284
             300                                                                                  240
                                                                                230
             250
             200
             150
             100
              50
               0
                    FY 2002 Actual FY 2003 Actual FY 2004 Actual FY 2005 Actual FY 2005 Target



                   OIG exceeded its target (a result that is lower than the target is a better result), considerably reducing the
Impact             average time to complete an audit from that of prior years. The sooner a report is provided to the Department,
                   the BBG, and the Congress, the sooner corrective actions can be implemented.
Data               Source                            OIG Project Tracking System
                                                     High – attested to by the AIGs for Audits and IT, and audited internally by
                   Verification Confidence Level
                                                     the Office of Management, Policy, and Planning
                   Validation Confidence Level       Moderate – interim outcome that leads to action and improvements




36                                                                                          FY 2005 Performance Report



                                                                                 15,609
                                   Office of Inspector General
                  Department of State and the Broadcasting Board of Governors
                                  FY 2005 Performance Report



                                          APPENDICES
                                            Appendix A

           FY 2005 Reports Issued in Support of OIG’s Strategic Goals

                                        Reports Issued in FY 2005
                                                 Foreign Policy
 •   Inspection of Embassy Amman, Hashemite Kingdom of Jordan
 •   Inspection of the Bureau of Political-Military Affairs
 •   Inspection of Embassy Cairo, Egypt
 •   Inspection of Embassy Paris, France
 •   Financial Support and Training Office, Paris, France
 •   Inspection of US Mission to the United Nations Educational, Scientific & Cultural Organization, Paris
 •   Inspection of the U.S. Mission to the Organization for Economic Cooperation & Development, Paris
 •   Inspection of Embassy Bucharest, Romania
 •   Inspection of Embassy Sofia, Bulgaria
 •   Inspection of Embassy Chisinau, Moldova
 •   U.S. Section of the International Boundary and Water Commission
 •   Inspection of the Bureau of Diplomatic Security, Directorate of Security Infrastructure
 •   Inspection of the Bureau of Arms Control
 •   Inspection of the Bureau of Nonproliferation
 •   Inspection of the Bureau of Verification & Compliance
 •   Regional Information Management Center Frankfurt
 •   Regional Information Management Center Ft. Lauderdale
 •   The International Broadcasting Bureau’s Botswana Transmitting Station
 •   Inspection of the BBG’s Operations in Hong Kong
 •   Inspection of the BBG’s Operations in India
 •   The BBG’s Operations in and Broadcasting to Pakistan
 •   Inspection of the IBB’s Greenville, North Carolina, Transmitting Station
 •   Inspection of the IBB’s Delano, California, Transmitting Station
 •   Compliance Followup Review of Embassy Kathmandu, Nepal
 •   Bureau of Consular Affairs, Office of Overseas Citizens Services, Office of Children’s Issues
 •   Inspection of the Bureau of Consular Affairs, Office of the Executive Director
 •   Inspection of the Bureau of Consular Affairs, Office of Policy Review and Interagency Liaison
 •   Compliance Follow-up Review of Bureau of Democracy, Human Rights, and Labor
 •   Inspection of Embassy Tel Aviv, Israel
 •   Inspection of the Bureau of International Narcotics & Law Enforcement Affairs
 •   Inspection of Consulate General Jerusalem
 •   Inspection of Embassy Beirut, Lebanon
 •   Inspection of Embassy Damascus, Syria
 •   Inspection of Embassy Singapore
 •   Inspection of Embassy Kuala Lumpur, Malaysia
 •   Inspection of Embassy Bandar Seri Begawan
 •   Inspection of Embassy New Delhi, India
FY 2005 OIG Performance Report                                                                               37
                                  Office of Inspector General
                 Department of State and the Broadcasting Board of Governors
                                 FY 2005 Performance Report


                                        Foreign Policy (Continued)
 •   Inspection of the American Institute in Taiwan
 •   Inspection of Embassy Hanoi, Vietnam
 •   Inspection of Embassy Jakarta, Indonesia
 •   Inspection of Embassy Dili, East Timor
 •   Inspection of Embassy Santo Domingo, Dominican Republic
 •   Inspection of Embassy Islamabad, Pakistan
 •   Inspection of Embassy Lilongwe, Malawi
 •   Inspection of Embassy Harare, Zimbabwe
 •   Inspection of Embassy Gaborone, Botswana
 •   Inspection of Embassy Lusaka, Zambia
 •   Inspection of the Bureau of Oceans & International Environmental & Scientific Affairs
 •   Inspection of the Science & Technology Advisor to the Secretary
 •   Inspection of Consulate General Hong Kong
 •   Survey of the Office of the Global AIDS Coordinator
 •   Review of Treaty Management Responsibilities in the Office of Treaty Affairs
 •   Management Review of Visa & Passport Fraud Prevention Programs
 •   Review of Watch List Vulnerabilities
 •   Nonimmigrant Visa Adjudications: The Visa Referral Process
 •   Nonimmigrant Visa Adjudications: Standards for Refusing Applications
 •   Summary Report on Public Diplomacy at the Department of State
 •   Review of Off-Site Support to Embassy Baghdad & Constituent Units
 •   Review of the Staffing of Embassy Baghdad
 •   Review of Radio Sawa Support to the Transition in Post-Saddam Iraq
 •   Review of the Broadcasting Board of Governors’ Progress in Linking its Budget Process and Strategic Planning
 •   Review of Lutheran Immigration & Refugee Service’s Reception and Placement Program
 •   Export Licensing of Chemical and Biological Weapons
 •   Review of Staffing Process for Embassy Baghdad’s New Embassy Compound
 •   Joint State-DOD Review of Iraqi Police Training
                                                    Security
 •   Review of Lighting Standards for Compound Physical Security Upgrades Projects
 •   Vulnerability Assessment of the Foreign Affairs Retirement & Disability System
 •   Summary of FY 2004 Information Systems Security Issues
 •   Program Management Review (Phase I) of the Anti-Terrorism Assistance Program
 •   Protection of Classified Information at State Department Headquarters
 •   Concerns About Changes in Cyber Security Roles & Responsibilities
 •   Review of Security Programs at U.S. Embassy Baghdad
 •   Review of New Embassy Construction – Embassy Beijing
 •         Review of the Creekbed Renovation Project
 •   Special Review of the Rosslyn Ridge Residential Housing Compound, Embassy Nairobi, Kenya
 •   Review of the Information Security Program for Sensitive Compartmented Information Systems at the
     Department of State
 •   Review of the Information Security Program at the Department of State
 •   Review of the Information Security Program at the Broadcasting Board of Governors
 •   Survey of Iraq IT Waivers
 •   Embassy Baghdad Communications Security Evaluation
 •   Review of Security Upgrade Construction Project in Havana, Cuba


38                                                                                 FY 2005 Performance Report
                                  Office of Inspector General
                 Department of State and the Broadcasting Board of Governors
                                 FY 2005 Performance Report


                                         Financial Management
                                       and Administrative Support
 •   Application of Agreed-Upon Procedures on Costs Claimed by Gordon C. James Public Relations, Inc.
 •   Agreed-Upon Procedures Review of Daily Direct Labor, Aerial Support Equipment & Indirect Expense Rates
     Proposed by Blackwater Security Consultants, Inc.. Contractor’s Accounting System & Time Keeping
     Procedures
 •   Survey of Department of State’s Funding for Iraq
 •   Audit of the Kellogg Brown & Root Termination for Convenience Proposal
 •   Quality Control Review of KPMG LLP
 •   Assessment of the Certification & Accreditation, Change Management, & Patch Management Processes
 •   Audit of U.S. Department of State 2004 & 2003 Principal Financial Statements
 •   Agreed-Upon Procedures Report on Federal Intragovernmental Activity & Balances
 •   Independent Auditor’s Report on Special-Purpose Financial Statements
 •   Review of Agreed Upon Procedures for the Verification of Excessive Fuel Charges in Support of the Jordan
     International Police Training Center
 •   Agreed-Upon Procedures Review of Indirect Rates and Equipment Delivery Charge Proposed By Armor Group
     North America And Review of Accounting System
 •   Review of Procurement & Property Operations at Embassy Bamako
 •   Review of the Bureau of African Affairs Unauthorized Commitments
 •   Independent Attestation Review of Annual Accounting of Drug Control Funds by the Department of State
 •   Review of Department of State’s Overseas Purchase Card Program
 •   Controls Over the Department of State’s Language Incentive Pay Allowance Payments
 •   Audit of FY 2004 BBG Principal Financial Statements
 •   Reporting on Applying Agreed-Upon Procedures Export Control and Related Border Security Assistance
     Program for Kazakhstan, Kyrgyzstan, & Uzbekistan
 •   Agreed-Upon Procedures Review of Indirect Rates Proposed by National Strategy Information Center, Inc
 •   Agreed-Upon Procedures Review of Indirect Rates Proposed by Mainstreet Technologies, Inc.
 •   Review of the American Institute in Taiwan Procurement Practices and FY 2003 Indirect Cost Rate
 •   Agreed-Upon Procedures Applied to the Claim Submitted by Kullman Industries, Inc
 •   Assessment of Value-added Tax Exemption & Reimbursement Efforts
 •   Audit of the International Boundary & Water Commission’s 2004 & 2003 Financial Statements
 •   Audit of the International Cooperative Administrative Support Services’ FY 2003 and FY 2002 Financial
     Statements
 •   Management Letter Related to the Audit of the International Cooperative Administrative Support Services’ FY
     2003 and FY 2002 Financial Statements
 •   Department’s Oversight of the Foreign Affairs Recreation Association
 •   Application of Agreed-Upon Procedures for Retirement, Health Benefits, & Life Insurance
 •   Review of Department’s Compliance with the State First Policy for Acquisitions
 •   Summary Evaluation of the Regional Information Management Centers
 •   Evaluation of Department of State’s Public Diplomacy Network Conversion to OpenNet Plus
 •   Review of the Voice of America’s Digital Upgrade Program

                                               Accountability
 •   Review of Direct Labor & Indirect Expense Rates Proposed by Moore Ruble Yudell & Its Subcontractors
 •   Review of Selected Awards to MiraMed Institute
 •   Quality Control Review of Grant Thornton LLP
 •   Review of Selected Grants Awarded to Institute for the Study & Development of Legal Systems



FY 2005 OIG Performance Report                                                                                39
                                 Office of Inspector General
                Department of State and the Broadcasting Board of Governors
                                FY 2005 Performance Report



                                          Appendix B
                      FY 2005 Reports Issued That Address the
                          President’s Management Agenda

During FY 2005, OIG continued to focus work on the five government-wide
initiatives of the PMA and on the program-specific initiative to rightsize the U.S.
government’s overseas presence. The table below identifies activities undertaken
and reports issued by OIG that contained findings and recommendations addressing
these issues.

                               Reports Addressing PMA Initiatives
                                  Expanded Electronic Government
 •   None


                                   Improved Financial Performance
 •   Review of Selected Awards to MiraMed Institute
 •   Report on Applying Agreed-Upon Procedures Export & Related Border Security Assistance Program
          Kazakhstan, Kyrgyzstan, and Uzbekistan
 •   Review of Indirect Cost Rates Proposed by Mainstreet Technologies, Inc.
 •   Review of Controls Over Move of Domestic Operations to Charleston
 •   Assessment of the Certification and Accreditation, Change Management, and Patch Management Process
 •   Review of Cashiering Operations, Embassy Baghdad
 •   Review of Direct Labor, Aerial Support Equipment and Indirect Expense Rates Proposed by Blackwater
          Security Consultants, Inc. and Accounting System and Timekeeping Procedures
 •   Review of Department's Compliance with the State First Policy for Acquisitions
 •   Review of Allegations Concerning DynCorp International's WPPS in Afghanistan
 •   Review of the Department of State's Overseas Purchase Card Program
 •   Review of the American Institute in Taiwan Procurement Practices & FY 2003 Indirect Cost Rates
 •   Agreed-Upon Procedures Review of Indirect Cost Rates Proposed by National Strategy Information Center,
     Inc.
 •   Agreed-Upon Procedures Review of Indirect Cost Rates & Equipment Delivery Charge Proposed by
     ArmorGroup North America and Review of the Accounting System

                                Budget and Performance Integration
 •   Security Inspection of IBB Transmission Sites in Germany
 •   Summary Evaluation of the Regional Information Management Centers
 •   Evaluation of IBB's Transmitting Station, Delano, CA
 •   Evaluation of IBB's Botswana Transmitting Station
 •   Evaluation of IBB's Greenville, NC, Transmitting Station




40                                                                             FY 2005 Performance Report
                                 Office of Inspector General
                Department of State and the Broadcasting Board of Governors
                                FY 2005 Performance Report


                               Strategic Management of Human Capital
 •   Security Inspection of IBB Transmission Sites in Germany
 •   IBB's Djibouti Transmitting Station
 •   Evaluation of IBB's Transmitting Station, Delano, CA
 •   Review of the Consular Lookout and Support System
 •   Evaluation of IBB's Botswana Transmitting Station
 •   Inspection of BBG's Operations in India
 •   Inspection of Regional Information Management Center Frankfurt, Germany
 •   Information Security Inspection of the Regional Information Management Center Ft. Lauderdale
 •   Summary Evaluation of the Regional Information Management Centers
 •   Review of Staffing at U.S. Embassy Baghdad
 •   Review of Staffing Process for Embassy Baghdad's New Embassy Compound

                                          Competitive Sourcing
 •   None


                                Rightsizing of U.S. Overseas Presence
 •   Inspection of Embassy Berlin and Constituent Posts
 •   Inspection of Embassy Damascus, Syria
 •   Inspection of Embassy Islamabad, Pakistan
 •   Inspection of the Bureau of Arms Control




FY 2005 OIG Performance Report                                                                      41
                                   Office of Inspector General
                  Department of State and the Broadcasting Board of Governors
                                  FY 2005 Performance Report


                                   List of Abbreviations
     BBG              Broadcasting Board of Governors
     AIG              Assistant Inspector General
     AUD              OIG Office of Audits
     CATS             Compliance Analysis Tracking System
     Department       Department of State
     DOD              Department of Defense
     EX               Executive Office
     FISMA            Federal Information Security Management Act
     FY               Fiscal Year
     IBO              Office of International Broadcasting Oversight
     ICASS            International Cooperative Administrative Support Services
     INV              OIG Office of Investigations
     ISP              OIG Office of Inspections
     ISU              Iraq Support Unit
     IT               OIG Office of Information Technology
     OIG              Office of Inspector General
     OMB              Office of Management and Budget
     OTS              OIG Timesheet System
     PART             Program Assessment Rating Tool
     PCIE             President’s Council on Integrity and Efficiency
     PMA              President’s Management Agenda
     PTS              Project Tracking System
     TVA/OIG          Tennessee Valley Authority Office of Inspector General
     U.S.             United States




42                                                                  FY 2005 Performance Report
                  Report Fraud, Waste and Abuse to:

                  Office of Inspector General HOTLINE
                                202/647-3320
                             or 1-800-409-9926
                      or e-mail oighotline@state.gov
                   to report illegal or wasteful activities

                          You may also write to
                        Office of Inspector General
                         U.S. Department of State
                          Post Office Box 9778
                          Arlington, VA 22219



Additional information regarding OIG’s mission, activities and publications
                     is available on the OIG website:

                               oig.state.gov

      Requests or questions regarding OIG planning activities or this
                Performance Report may be addressed to:

               Office of Management, Policy, and Planning
                       Office of Inspector General
                         U.S. Department of State
                       Washington, DC 20522-0308




                  U.S Dept. of State Publication Number: 11291
                          Office of Inspector General
                            Released November 2005
   United States Department of State
and the Broadcasting Board of Governors
      Office of Inspector General



         2201 C S t reet, NW
     Washington, D C 20522-3080

         oig.state.gov
